App. 1
STATE OF LOUISIANA
COURT OF APPEAL
FIRST CIRCUIT
NO. 2019 KA 1458
STATE OF LOUISIANA VERSUS
JOSHUA JAMAR COLEMAN
Judgment Rendered: JUN 12 2020
*****
On Appeal from the
22nd Judicial District Court
Parish of St. Tammany, State of Louisiana
No. 612913
The Honorable Martin E. Coady, Judge Presiding
*****
Warren L. Montgomery
Attorneys for the
District Attorney
State of Louisiana
Matthew Caplan
Assistant District Attorney
Covington, Louisiana
Matthew B. Champagne
Covington, Louisiana

Attorney for
Defendant/Appellant,
Joshua Jamar Coleman

*****
BEFORE: WHIPPLE, C.J.,
GUIDRY AND BURRIS,1 JJ.

1

The Honorable William J. Burris is serving as judge pro
tempore by special appointment of the Louisiana Supreme Court.

App. 2
BURRIS, J.
The defendant, Joshua Jamar Coleman, was charged
by bill of information with possession with intent to
distribute 28 grams or more of cocaine (count 1) and
illegal carrying of a weapon while possessing or distributing a controlled dangerous substance (count 2).
See La. R.S. 40:967(A); La. R.S. 14:95(E). He initially
pled not guilty. After the trial court denied his motion
to suppress the evidence, the defendant withdrew his
not guilty pleas and pled guilty as charged, reserving
his right to appeal the denial of his motion to suppress
pursuant to State v. Crosby, 338 So. 2d 584 (La. 1976).
For each count, the trial court sentenced the defendant
to five years imprisonment at hard labor without benefit of parole, probation, or suspension of sentence,
and ordered that the sentences run concurrently. The
defendant now appeals, challenging the trial court’s
ruling on the motion to suppress. We affirm the convictions and sentences.
FACTS
At the motion to suppress hearing, Louisiana
State Police Trooper Raymond Martinez testified that
on November 12, 2018, he was alerted about suspicious
activity involving a gold Chevrolet Malibu making “a
flip-trip,” meaning it was traveling back and forth
across the state in the same day. Trooper Martinez observed the Malibu following too closely behind another
vehicle on 1-12 in St. Tammany Parish, with its license
plate partially covered by license plate trim. Based on

App. 3
the two traffic violations, Trooper Martinez effected a
traffic stop.
Trooper Martinez had the defendant, who was the
sole occupant of the Malibu, exit the vehicle. He advised the defendant of the traffic violations and asked
for identification, which the defendant provided, and
proof of automobile insurance, which the defendant did
not have. Trooper Martinez ran the defendant’s information through NCIC, which typically takes about ten
minutes, and asked the defendant where he was going.
The defendant’s story that he traveled from Georgia
and spent several days in Houston conflicted with information the trooper received from a license plate
reader, and the defendant appeared nervous, with a
shaky voice and hands. Trooper Martinez suspected
the defendant was involved in criminal activity and
asked for consent to search the vehicle, which the defendant refused.
As Trooper Martinez was conducting the traffic
stop and waiting for the NCIC information, backup and
a St. Tammany Parish Sheriff ’s deputy with a canine
unit arrived at the scene. According to the dashcam
footage and bodycam footage, within twenty minutes
of the initial stop, the canine officer walked the dog
around the vehicle and the dog alerted. A subsequent
search yielded approximately 1.8 pounds of cocaine, a
firearm, and a mask inside a book bag in the vehicle’s
trunk.

App. 4
MOTION TO SUPPRESS
The defendant contends the trial court erred in
denying the motion to suppress the evidence seized
from the vehicle, arguing he was unconstitutionally detained beyond the time necessary to issue citations for
the alleged traffic violations.
The Fourth Amendment to the United States Constitution and Article I, § 5, of the Louisiana Constitution protect people against unreasonable searches and
seizures. A defendant may move to suppress any evidence from use at trial on the basis that it was unconstitutionally obtained. La. Code Crim. Pro. art. 703(A).
It is well-settled that a search and seizure conducted
without a warrant issued on probable cause is per se
unreasonable unless the State can affirmatively show
that the warrantless search and seizure was justified
by one of the narrowly drawn exceptions to the warrant requirement. See La. Code Crim. Pro. art. 703(D);
State v. Surtain, 09-1835 (La. 3/16/10), 31 So. 3d 1037,
1043. A trial court’s ruling on a motion to suppress the
evidence is entitled to great weight because of the trial
court’s opportunity to observe the witnesses and weigh
the credibility of their testimony. A reviewing court
owes great deference to the trial court’s findings of fact
based on the testimony and credibility of witness, and
may not overturn those findings unless they are unsupported by the evidence. However, the trial court’s
legal findings are subject to de novo review. State v.
Thompson, 11-0915 (La. 5/8/12), 93 So. 3d 553, 563.

App. 5
Pursuant to the investigatory stop recognized by
the United States Supreme Court in Terry v. Ohio, 392
U.S. 1, 88 S. Ct. 1868, 20 L. Ed. 2d 889 (1968), a police
officer may briefly seize a person if the officer has an
objectively reasonable suspicion, supported by specific
and articulable facts, that the person is, or is about to
be, engaged in criminal conduct or is wanted for past
criminal acts. Louisiana Code of Criminal Procedure
article 215.1(A) provides that an officer’s reasonable
suspicion of crime allows a limited investigation of a
person. However, reasonable suspicion is insufficient to
justify custodial interrogation, even though the interrogation is investigative. Florida v. Royer, 460 U.S. 491,
499, 103 S.Ct. 1319, 1325, 75 L.Ed.2d 229 (1983); State
v. Fisher, 97-1133 (La. 9/9/98), 720 So. 2d 1179, 1183.
Generally, the decision to stop an automobile is
reasonable where the police have probable cause to believe that a traffic violation has occurred. The standard
is purely objective and does not take into account the
subjective beliefs or expectations of the detaining officer. Although they may serve, and may often appear
intended to serve, as the prelude to the investigation
of more serious offenses, even relatively minor traffic
violations provide an objective basis for lawfully detaining a vehicle and its occupants. State v. Waters, 000356 (La. 3/12/01), 780 So. 2d 1053, 1056 (per curiam).
Here, the defendant does not dispute the reasonableness of Trooper Martinez’s decision to stop the
vehicle. Rather, he argues the stop was unlawfully prolonged in violation of his constitutional rights. In support, the defendant cites Rodriguez v. United States,

App. 6
575 U.S. 348, 135 S.Ct. 1609, 191 L.Ed.2d 492 (2015),
which held that the police may not extend an otherwise
completed traffic stop, absent reasonable suspicion, in
order to conduct a dog sniff.
Louisiana Code of Criminal Procedure article
215.1(D) pertinently provides that in conducting a
traffic stop “an officer may not detain a motorist for a
period of time longer than reasonably necessary to
complete the investigation of the violation and issuance of a citation for the violation, absent reasonable
suspicion of additional criminal activity.” During the
stop, the officer has the right to conduct a routine license and registration check and, while doing so, may
engage in conversation with the driver and any passenger. See State v. Lopez, 00-0562 (La. 10/30/00), 772
So. 2d 90, 92-93 (per curiam); State v. Barnes, 12-0615,
2012WL5387692, *4 (La. App. 1 Cir. 11/2/12), writ denied, 13-0634 (La. 8/30/13), 120 So. 3d 264. If the officer
develops reasonable suspicion of criminal activity, he
may further detain the individual while he diligently
pursues a means of investigation likely to quickly confirm or dispel the particular suspicion. United States v.
Sharpe, 470 U.S. 675, 686, 105 S.Ct. 1568, 1575, 84
L.Ed.2d 605 (1985). In determining whether the officer
has a reasonable suspicion of some separate illegal activity that justifies further detention, the totality of
the circumstances must be taken into account. State v.
Kalie, 96-2650 (La. 9/19/97), 699 So. 2d 879, 881 (per
curiam).
Although the defendant contends the traffic stop
was unjustifiably prolonged to allow for the arrival of

App. 7
the K-9 unit, the record establishes the K-9 unit arrived less than twenty minutes after the defendant
was stopped, and within seconds of Trooper Martinez
receiving the NCIC report he requested. Prior to the
K-9 unit’s arrival, Trooper Martinez learned the defendant had no proof of insurance and observed the defendant’s nervous behavior while giving what Trooper
Martinez knew to be dishonest answers about his
travel history. Trooper Martinez also testified that
through the open driver’s side door, he observed what
appeared to be loose marijuana residue in the vehicle.
Trooper Martinez’s observations provided reasonable
suspicion to enlarge the scope of the investigation. The
arrival of the K9 unit less than twenty minutes after
the stop afforded the opportunity to quickly confirm or
dispel Trooper Martinez’s suspicions while justifiably
detaining the defendant. Compare Lopez, 772 So. 2d
at 93. Furthermore, we do not find that the twentyminute stop was unjustifiable as a reasonable investigatory stop.
The trial court did not err in denying the motion
to suppress.
SENTENCE
Pursuant to Louisiana Code of Criminal Procedure article 920, this court routinely conducts a review
for errors discoverable by mere inspection of the pleadings and proceedings, without inspection of the evidence, including the imposition of an illegally lenient
sentence. E.g., State v. Hamilton, 19-1206 (La. App. 1

App. 8
Cir. 2/21/20), So. 3d, (2020WL860183, *5); see also State
v. Kelly, 15-0484 (La. 6/29/16), 195 So. 3d 449, 457-58.
The State suggests in its brief that the trial court imposed an illegally lenient sentence on count 2, because
it failed to impose a mandatory fine.
Upon conviction for illegal carrying of a weapon
while possessing or distributing a controlled dangerous substance, Louisiana Revised Statute 14:95(E)
provides for imposition of a fine of not more than ten
thousand dollars. Where a statute authorizes a fine of
“not more than” a certain amount, a fine of $0, or its
equivalent of no fine imposed, is necessarily contained
within the meaning of “not more than.” See State v.
Martinez, 52,882 (La. App. 2 Cir. 8/14/19), 278 So. 3d
467, 472; State v. Albercht, 01-1664 (La. App. 4 Cir.
1/30/02), 809 So. 2d 472, 477; State v. Francois, 06-788
(La. App. 3 Cir. 12/13/06), 945 So. 2d 865, 870; see also
State v. Patin, 19-157 (La. App. 5 Cir. 11/13/19), 285 So.
3d 48, 58-59 (recognizing that previous decisions of the
circuit held that statutory language requiring a fine of
“not more than” a specified amount requires a fine, but
noting the matter is not free from doubt and, where the
state failed to object at sentencing, no correction was
necessary). The state is incorrect in its argument that
the failure to impose a fine on count 2 resulted in an
illegally lenient sentence.
CONVICTIONS AND SENTENCES AFFIRMED.

App. 9
The Supreme Court of the State of Louisiana
STATE OF LOUISIANA
VS.

No.2020-K-00868

JOSHUA JAMAR COLEMAN
–– ––––
IN RE: Joshua Jamar Coleman - Applicant Defendant;
Applying For Writ Of Certiorari, Parish of St. Tammany, 22nd Judicial District Court Number(s) 612913,
1st Circuit Court of Appeal, Number(s) 2019 KA 1458;
––––––
October 20, 2020
Writ application denied.
JLW
BJJ
JDH
SJC
WJC
JHB
Genovese, J., would grant and assigns reasons.
Supreme Court of Louisiana
October 20, 2020
/s/ [Illegible]
Clerk of Court For the Court

App. 10
SUPREME COURT OF LOUISIANA
No. 17-K-0868
STATE OF LOUISIANA
v.
JOSHUA JAMAR COLEMAN
ON SUPERVISORY WRIT TO THE
TWENTY-SECOND DISTRICT COURT,
PARISH OF ST. TAMMANY
GENOVESE, J., would grant this writ for the following reasons.
I would grant this application on the basis that the
state failed to adequately justify the extended traffic
stop per Rodriguez v. United States, 575 U.S. 348, 135
S.Ct. 1609, 191 L.Ed.2d 492 (2015).
Trooper Martinez, the arresting officer in this case,
arguably initiated a lawful stop of defendant for following another vehicle too closely and having a partially
obscured license plate. However, after the dispatcher
informed him that defendant had a valid driver’s license, valid registration, and the lack of a criminal record (a five to 10 minute period), Trooper Martinez had
no authority to further detain defendant. Ultimately,
defendant was detained to a total of 20 minutes.
Trooper Martinez testified that he extended the
stop because of defendant’s nervousness, heavy breathing, trembling voice, inconsistencies in defendant’s stories, and his questioning of an unknown substance on
the driver’s floorboard. However, defendant’s alleged

App. 11
nervousness and shaking could be easily attributed to
other factors, such as a the cold November rain defendant stood in.
This situation is precisely the one contemplated by
the Rodriguez Court when it issued its ruling. It is my
view that Trooper Martinez prolonged the traffic stop
in order to conduct a canine sniff without the requisite
reasonable suspicion. Accordingly, I would reverse the
lower courts and grant defendant’s motion to suppress.

